                                  EVALUATION




 BUREAU OF INDIAN AFFAIRS AND
 U.S. FISH AND WILDLIFE SERVICE
 SAFETY OF DAMS:
 EMERGENCY PREPAREDNESS




Report No.: WR-EV-MOA-0002-2013   September 2013
              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR
                                                                              SEP 2.4.. 2013
Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management and Budget

               Kevin K. Washburn
               Assistant Secretary for Indian Affairs

               Rachel Jacobson


From:          Mary L. Kendall
               Deputy Inspector Gene al

Subject:       Final Evaluation Report- Bureau oflndian Affairs and U.S. Fish and Wildlife
               Service Safety of Dams: Emergency Preparedness
               Report No. WR-EV-MOA-0002-2013

       This memorandum transmits our evaluation report ofthe Bureau of Indian Affairs' (BIA)
and U.S. Fish and Wildlife Service's (FWS) emergency preparedness at their high-hazard dams.

        This is the last of our three evaluations on dam safety and emergency preparedness. We
identified several areas in which BIA and FWS can improve their emergency management. BIA
has an opportunity to update its dam hazard classifications, fully develop its early warning
systems, and update the communication directories at its National Monitoring Center. In
addition, BIA has had some challenges in documenting its emergency action plan exercises. We
learned that FWS has no policy requiring after-action reports. Finally, both FWS and BIA could
improve their verification of emergency equipment and materials mentioned in their emergency
action plans. We include 13 recommendations in our report that, if implemented, will help to
improve emergency action planning at the two bureaus.

       Based on BIA's August 29, 2013 response to the draft report and FWS' August 6, 2013
response to the draft report, we consider all 13 recommendations to be resolved but not
implemented. We will refer these recommendations to the Office of Policy, Management and
Budget to track implementation.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

     A response to this report is not required. If you have any questions regarding this
memorandum or the subject report, please do not hesitate to contact me at 202-208-5745.



                               Office of Inspector General I Washington, DC
Table of Contents
Results in Brief ....................................................................................................... 1

Introduction ............................................................................................................. 2
  Objective ............................................................................................................. 2
   Background ......................................................................................................... 2
      Emergency Action Plans ................................................................................. 2
      BIA Early Warning Systems and National Monitoring Center ....................... 2
      Criteria ............................................................................................................. 3

Findings................................................................................................................... 4
  BIA ...................................................................................................................... 4
      Dam Hazard Classification .............................................................................. 4
      Exercising EAPs and Documenting EAP Exercises and Dam Incidents ........ 4
      Documenting EAP Annual Reviews ............................................................... 5
      Inventories for EAPs and Exercise Completion Reports................................. 6
      Documenting Available Emergency Equipment in EAPs ............................... 6
      Early Warning Systems ................................................................................... 7
   FWS..................................................................................................................... 8
      Documenting Available Emergency Equipment in EAPs ............................... 8
      After-action Reports ........................................................................................ 9

Conclusion and Recommendations ....................................................................... 10
  Conclusion......................................................................................................... 10
   Recommendations ............................................................................................. 10
      BIA ................................................................................................................ 10
      FWS ............................................................................................................... 13

Appendix 1: Scope and Methodology................................................................... 14
 Scope ................................................................................................................. 14
   Methodology ..................................................................................................... 14

Appendix 2: Prior Audit Coverage ....................................................................... 15
 OIG .................................................................................................................... 15
   GAO .................................................................................................................. 15
Appendix 3: Bureau of Indian Affairs’ Response................................................. 16

Appendix 4: U.S. Fish and Wildlife Service’s Response ..................................... 20

Appendix 5: Status of Recommendations ............................................................. 24
Results in Brief
This is the Office of Inspector General’s third evaluation report on the U.S.
Department of the Interior dam safety and emergency preparedness. Last year, we
issued two evaluation reports. Our first report focused on the Bureau of
Reclamation’s dam safety, and the second focused on the National Park Service’s,
Bureau of Land Management’s, and Office of Surface Mining Reclamation and
Enforcement’s dam safety. 1 In this most recent evaluation, we reviewed the
Bureau of Indian Affairs’ (BIA) and U.S. Fish and Wildlife Service’s (FWS) dam
safety and emergency preparedness. We found that many of the issues we
identified in the first two evaluations, such as not routinely exercising emergency
action plans (EAPs), not documenting those exercises, and not maintaining a
listing of materials and equipment in those EAPs, also exist for BIA’s dam safety
program.

In addition to the recurring issues mentioned above, this review identified
concerns unique to BIA. Specifically, due to conflicting rules, BIA is the only
DOI bureau with dams that do not follow the Federal Emergency Management
Agency (FEMA) guidelines for dam hazard classification. 2 In addition, not all
BIA early warning systems are completely developed or fully functioning.
Further, communication directories at BIA’s National Monitoring Center are
outdated.

An area we identified as needing improvement for both FWS and BIA is the
verification of equipment and materials mentioned in the EAP. While we
acknowledge FWS and BIA have no requirement for documenting this
verification, it is an important component of emergency preparedness.

FWS does not have a formal written policy requiring it to prepare after-action
reports. FWS does have EAPs in place for the high-hazard dams we reviewed and
routinely exercises them. In addition, FWS documents the exercises in after-
action reports.

In April 2013, we issued Notices of Potential Findings and Recommendations to
BIA and FWS that outlined the findings in this report. BIA and FWS are
committed to the continual improvement of existing safety management
procedures. Agreeing that the areas we identified should help improve BIA’s and
FWS’ existing dams safety programs, BIA and FWS generally concurred with our
findings and recommendations. They have begun addressing the issues identified
in our review.


1
  “Bureau of Reclamation’s Safety of Dams: Emergency Preparedness,” WR-EV-BOR-0007-2011. February
2012.
 “Bureau of Land Management, National Park Service, and Office of Surface Mining Reclamation and
Enforcement’s Safety of Dams: Emergency Preparedness,” WR-EV-MOA-0015-2011. December 2012.
2
   FEMA’s “Federal Guidelines for Dam Safety,” April 2004.


                                                                                                1
Introduction
Objective
Our objective was to review the emergency preparedness of the U.S. Department
of the Interior’s (DOI) Bureau of Indian Affairs’ (BIA) and U.S. Fish and
Wildlife Service’s (FWS) high-hazard dams. Specifically, we evaluated their
emergency action plans (EAPs) to determine if the plans were in place, reviewed,
updated, and exercised appropriately, and what, if any, problems exist in the
bureaus’ ability to respond to a disaster. See Appendix 1 for the scope and
methodology of this report and Appendix 2 for prior audit coverage.

Background
DOI protects and manages 500 million acres, or about 20 percent, of the Nation’s
land. This responsibility includes managing and ensuring dam safety for the more
than 2,600 dams owned by DOI.

BIA has the largest inventory of dams in DOI. Out of DOI’s total dam inventory
of 2,600 dams, BIA is responsible for about 900. A great majority of BIA’s 900
dams, however, are classified as low hazard. BIA is responsible for 135 high- and
significant-hazard dams, which are spread through 8 regions and located on 41
reservations. BIA dams are primarily earth embankment dams with an average
height of 44 feet.

FWS has 251 dams, of which 14 are high-hazard dams. Most of these dams are
also earth embankment dams and range in height from 10 to 114 feet.

Emergency Action Plans
EAPs are formal, living documents. They identify potential emergency conditions
at a dam and specify actions for dam operating personnel to follow during
emergencies or unusual occurrences. The purpose of an EAP is to minimize the
loss of life and property damage and provide proper notification to downstream
authorities.

BIA Early Warning Systems and National Monitoring Center
In addition to EAPs, BIA’s emergency management of high- and significant-
hazard dams includes the early warning systems (EWSs) at some of its dams,
which are overseen by the National Monitoring Center (NMC) in Ronan, MT.
Throughout the 1980s, BIA did not fulfill its responsibilities under its Safety of
Dams Program to address identified or potential dam safety deficiencies in a
timely manner. As a result of prior Office of Inspector General (OIG) reports
issued in 1989 and 1995, BIA agreed to install EWSs as an inexpensive
alternative to more costly dam rehabilitations. 3 Congress provided the funding for

3
 DOI-OIG Audit Reports, “Dam Safety Program, Bureau of Indian Affairs,” 89-108. September 1989, and
“Safety of Dams Program, Bureau of Indian Affairs,” 95-I-422. February 1995.


                                                                                                      2
additional staff for BIA’s dam safety activities. Using EWSs, NMC can remotely
monitor, on a 24-hour basis, the climatic and hydrologic conditions surrounding a
dam.

An EWS consists of—

   •   a method for detecting flood events;
   •   an informed decisionmaking process, which includes predetermined
       criteria for determining the level of emergency response;
   •   a means for communicating warnings between operating personnel and
       local public safety officials; and
   •   a means for local public safety officials to effectively communicate the
       warnings to the public and carry out a successful evacuation of the
       population at risk.

EWS equipment transmits data to NMC. The data is checked against
predetermined criteria to determine if dam conditions pose a serious threat to
residents downstream. If a threat exists, NMC personnel will notify the proper
authorities to initiate actions prescribed in the appropriate EAP.

Criteria
The Indian Dams Safety Act of 1994 directs the Secretary of the Interior to
establish a dam safety maintenance and repair program within BIA, to monitor the
condition of all dams on Indian lands, and to maintain them in a satisfactory
condition on a long-term basis.

The Federal Emergency Management Agency’s (FEMA) “Federal Guidelines for
Dam Safety” (FGDS) and DOI’s “Departmental Manual” require that bureaus’
dam safety programs prepare, review, and update EAPs for high-hazard dams.
“Departmental Manual” § 753 specifies that the EAP reviews and updates be
performed at least annually. The annual review and update should make any
changes to notification of personnel, procedures, and telephone numbers. In
addition, “Departmental Manual” § 753 requires that EAPs be tested every 5
years to ensure that the plans will function satisfactorily in the event of an actual
emergency.

BIA and FWS have generally incorporated the FGDS and “Departmental Manual”
§ 753 emergency action planning requirements in the “Indian Affairs Manual” §
55, BIA’s “Safety of Dams Handbook,” and “Fish and Wildlife Service
Engineering and Construction” § 361.




                                                                                    3
Findings
BIA
Dam Hazard Classification
BIA is the only DOI bureau with dams that does not follow the FGDS for
classification of high- and significant-hazard dams. This inconsistency creates
confusion when defining a high- and significant-hazard dam. For example, the
FGDS defines a dam as high hazard when its failure puts one or more lives at risk
and as significant hazard when its failure risks no lives but may cause substantial
economic damages. The Indian Dams Safety Act of 1994, however, states that a
dam is high hazard when its failure puts six or more lives at risk or may cause
extensive property damage, and a dam is significant hazard when its failure puts
one to six lives at risk or may cause substantial property damage. Even though
BIA is required to follow the Act, it is possible for BIA to revise its dam
classification policy without conflicting with the Act’s requirements.

 Recommendation

    1. Update BIA policies to align with the FGDS dam hazard classification.


Exercising EAPs and Documenting EAP Exercises and Dam Incidents
We reviewed 28 of BIA’s dams. One dam is not current on its EAP exercises, and
12 dams do not have EAP completion reports or dam incident reports. Fifteen
dams are current on their EAP exercises and exercise completion reports were
prepared for these exercises, but the recommendations resulting from the
exercises are not being tracked for implementation.

One of BIA’s dams has not had its EAP exercised since May 2009. BIA’s Safety
of Dams Program Handbook requires BIA to exercise the EAPs for each high-
and significant-hazard dam every 3 years. The handbook also requires that BIA
document these activities in an exercise completion report, which other DOI
bureaus call an after-action report (AAR), and track any recommendations from
the EAP exercise.

Of the 28 dams we reviewed, 12 dams did not have current EAP exercise
completion reports or dam incident reports because they were never prepared,
they were late in being prepared, or BIA could not find them. Specifically, five
dams did not have an exercise completion report prepared after their EAP
exercise. We were informed that one of these five dams had an exercise in 2010,
but the exercise completion report has not been prepared. Since exercise
completion reports should be prepared immediately following an exercise, the
exercise report for this dam is about 3 years late.




                                                                                   4
In situations when an actual dam incident results in the activation of an EAP, BIA
will sometimes count these events as meeting its EAP exercise requirement. The
Indian Affairs Manual states that following an incident or emergency event, an
incident report will be prepared by the regional safety of dams officer and
submitted to the regional director and BIA’s safety of dams officer. We were
informed that six dams activated their EAP in 2010 because of incidents. Dam
safety personnel could not provide us with the incident response reports for these
events, however, because the reports either were never prepared or could not be
found. Likewise, staff told us that an exercise completion report for a 2009 EAP
exercise for one of the dams could not be found. Because exercise completion
reports and dam incident reports were unavailable, we could not determine if the
12 dams had met BIA’s EAP exercise requirement.

Of the 28 dams we reviewed, 15 dams are current on their EAP exercises, and
exercise completion reports were prepared for the exercises. We noted that the
recommendations resulting from the exercises, however, were not tracked for
implementation.

    Recommendations

      2. Comply with requirements to exercise the EAPs for high- and
         significant-hazard dams.

      3. Comply with requirements to prepare an exercise completion report
         after an EAP exercise or dam incident that includes a planned course
         of action to implement and track the recommended corrective
         actions.


Documenting EAP Annual Reviews
In addition to regular exercises, FEMA’s guidelines state that dam safety
personnel should conduct a periodic review of the overall EAP to assess its
workability and efficiency. The periodic review should occur on at least an annual
basis. BIA’s “Safety of Dams Program Handbook” also requires an annual
communication drill or, at a minimum, an annual review and update of the phone
numbers in each high- and significant-hazard dam’s EAP. 4

Although BIA policies do not specifically state that documentation of the annual
EAP and communications directory reviews is required, we believe consistent
documentation is essential to show that annual EAP reviews and communication
drills are being performed as required. As stated in the FGDS:



4
  BIA’s “Safety of Dams Program Handbook” states that a procedure should be established for the annual
review and revision of EAPs. The annual review and update of the phone numbers in each EAP appears to be
the extent of the written procedure for the annual review and revision of the EAPs.


                                                                                                      5
       After the EAP has been developed, approved, and distributed, the
       job is not done. Without periodic maintenance, the EAP will
       become outdated, lose its effectiveness, and no longer be workable.
       . . . If the plan is not updated, the information contained in it may
       become outdated and useless.

 Recommendation

     4. Establish consistent documentation for annual EAP reviews and
        communication drills.


Inventories for EAPs and Exercise Completion Reports
The BIA Branch for Dam Safety, Security, and Emergency Management does not
have a complete inventory of BIA’s EAPs and exercise completion reports for the
high- and significant-hazard dams. Of the 28 dams we reviewed, BIA was unable
to provide one EAP, and three EAPs are still in draft. In addition, BIA officials
could not locate one exercise completion report.

We understand that the tribes, as well as the Bureau of Reclamation (USBR),
have prepared and maintained these documents in the past. It is critical, however,
for BIA to have a complete collection of its EAPs and exercise completion reports
so that they are prepared in an emergency event and have documentation of past
EAP exercises to refer to for future EAP exercises.

 Recommendations

     5. Establish a timeline to finalize all the EAPs currently in draft.

     6. Maintain an inventory for all high- and significant-hazard dams’ EAPs
        and exercise completion reports.


Documenting Available Emergency Equipment in EAPs
The FGDS states that identifying preparedness actions to assist emergency
response is basic to an EAP. One such preparedness action is to make available
equipment, labor, and materials for emergencies.

We noted that 10 of the 28 EAPs we reviewed did not include a list of available
materials and equipment to respond to an emergency event. The EAPs that did
include such a listing did not have a process to verify the location, existence, and
operability of the equipment and materials. An annual verification process
performed and documented as a part of the annual EAP review ensures the
availability and readiness of these resources.




                                                                                       6
This verification process would be similar to the required inspections that the
Bureau of Ocean Energy Management performs on all equipment listed in an
operator’s oil spill response plan. For third-party equipment listed in an oil spill
response plan, operators are accountable for ensuring that the companies under
contract have the required equipment and that the equipment is operational. The
agency selectively inspects the contractors annually to ensure operator
compliance. 5

 Recommendation

      7. Ensure EAPs for all high- and significant-hazard dams have a listing of
         materials and equipment to the extent possible, and document the
         process of verifying the location and existence of equipment and
         materials listed in the EAPs as part of the annual EAP reviews.


Early Warning Systems
Out of BIA’s 135 high- and significant-hazard dams, 112 have an EWS. A BIA
official told us that BIA has a goal to have an EWS at each high- and significant-
hazard dam, and that it has not yet met this goal. Determining if EWSs are needed
and feasible at all high- and significant-hazard dams would be an important first
step for BIA to achieve its goal.

The EAPs for eight of the high- and significant-hazard dams with EWSs do not
mention the fact that the dam has an EWS. All of the EWS designs for BIA dams
are site specific, so it is important to incorporate the EWS information into each
dam’s EAP. The information can then be used when the EAP is activated. The
BIA’s “Safety of Dams Program Handbook” states: “For the EWS to be viable, it
must be incorporated into the EAP and be exercised on a regular basis.”

BIA does not have a policy requiring a review or update of the communication
directories at NMC and the predetermined EWS criteria used to determine level of
response at each dam site. It is critical to regularly review and update these
criteria because the EWS plays an important role in BIA’s Safety of Dams
Program. These predetermined criteria are the rules that determine when an alarm
is set off at NMC. It is also important to review and update the communication
directories at NMC on an annual basis, similar to the requirement to review and
update the communication directories in each dam’s EAP annually.

USBR has provided technical support for BIA’s EWS program since the mid-
1990s. One of the goals outlined in the interagency agreement between USBR and
BIA is to have fully functional EWSs in operation 24 hours a day, 7 days a week.


5
  Office of Inspector General, U.S. Department of the Interior, “A New Horizon: Looking to the Future of the
Bureau of Ocean Energy Management, Regulation and Enforcement,” CR-EV-MMS-0015-2010. December
2010.


                                                                                                          7
The interagency agreement specifies that USBR, BIA’s NMC, and EAP
coordinators implement and update NMC’s decision criteria.

The decision criteria are critical to NMC for notifying emergency managers of
potentially hazardous incidents. An EWS, for instance, must have decision criteria
to be considered fully functional. Of the 112 dams with EWS monitoring, only 95
have EWSs that are considered fully functional. For example, the Navajo
reservation has 14 dams with EWSs, but only 4 are considered fully functional
because BIA and USBR need to establish decision criteria. At the time of our
review, the EWSs for 10 Navajo dams were sending data to NMC; without
established decision criteria, however, no alarms were being received by the
NMC.

 Recommendations

    8. Determine if EWSs are needed and feasible at all high- and significant-
       hazard dams. If BIA determines that any of the remaining dams need
       an EWS and it is feasible, BIA should develop and initiate an
       implementation plan.

    9. Incorporate EWS information into the EAPs for those dams with an
       EWS.

    10. Establish a policy to periodically review and update the established
        EWS decision criteria for each dam site and the communication
        directories at NMC, and document those reviews.

    11. Work with USBR to make all existing EWSs fully functional.


FWS
Documenting Available Emergency Equipment in EAPs
There is no documentation verifying the location, existence, and operability of
equipment and materials listed as available in FWS’ EAPs. The FGDS states that
identifying preparedness actions to assist emergency response is a basic element
that should be included in an EAP. One such preparedness action is to make
available the equipment, labor, and materials for emergencies.

We noted that all 10 of the EAPs we reviewed included a list of materials and
equipment available for emergencies. Although these listings were included, there
was no process to verify the location, existence, and operability of the equipment
and materials. Completing an annual verification process as a part of the annual
EAP review ensures the availability and readiness of these resources.




                                                                                   8
 Recommendation

    12. Document the process of verifying the location and existence of
        equipment and materials listed in the EAPs as part of the annual EAP
        reviews.


After-action Reports
While FWS is in the practice of preparing AARs after each EAP exercise, this
practice is not a formal FWS policy. FWS does include preparation of an AAR in
the scope of work in the architectural and engineering consultant contracts for
EAP exercising. Although we commend FWS for including the requirement for
an AAR in its architectural and engineering contracts, formalizing the
requirement in a written policy ensures this practice will continue.

FWS may find USBR’s directives and standards useful in creating its own AAR
procedures. USBR’s directives and standards require each exercise to be
documented in an AAR containing identified strengths, deficiencies, and
recommended corrective actions, including a planned course of action to
implement and track the recommended actions.

 Recommendation

    13. Create a written policy that requires the preparation and issuance of
        an AAR after each incident or exercise and the inclusion of a planned
        course of action to implement and track the recommended corrective
        actions in the AAR to formalize its existing practice.




                                                                                9
Conclusion and Recommendations
Conclusion
This evaluation of BIA’s and FWS’ safety of dams and emergency preparedness
concludes our recent efforts reviewing DOI bureaus with dams. Many of the
issues discussed in this report were in our prior evaluations on USBR’s, the
Bureau of Land Management’s, the National Park Service’s, and the Office of
Surface Mining Reclamation and Enforcement’s dams. In addition, four of the
recommendations we make in this report are similar to USBR’s recommendations
in its July 2008 “U.S. Department of the Interior Independent Oversight Review
Report.” 6

In April 2013, we issued BIA and FWS Notices of Potential Findings and
Recommendations that outlined the findings in this report. BIA and FWS
generally concurred with our findings and recommendations; they have begun
addressing the issues identified in our review.

Both BIA and FWS are committed to the continual improvement of existing
emergency management procedures and we commend them for their dedication
and ongoing efforts.

Recommendations
BIA and FWS responded to our draft on August 29, 2013, and August 6, 2013,
respectively (see Appendices 3 and 4). According to their responses, both bureaus
concur with our recommendations. Based on BIA’s and FWS’ responses, we
consider all recommendations resolved but not implemented (see Appendix 5).
We are referring the recommendations to the Assistant Secretary for Policy,
Management and Budget for tracking.

BIA
We recommend that BIA:

    1. Update BIA policies to align with the FGDS dam hazard classification.

         BIA Response: BIA concurs with the recommendation. The BIA Dam
         Safety Security and Emergency Branch is currently updating the “Dam
         Safety Security and Emergency Management” (DSSEM) handbook and
         preparing draft language for revision of the Indian Dams Safety Act of
         1994 to be consistent with FEMA guidelines and other DOI agencies. The
         BIA dam safety and security officer will implement the recommendation
         by February 15, 2014.


6
 “U.S. Department of the Interior 2008 Independent Oversight Review Report: Bureau of Indian Affairs
Safety of Dams Program and Dam Security,” July 2008.


                                                                                                       10
2. Comply with requirements to exercise the EAPs for high- and significant-
   hazard dams.

   BIA Response: BIA concurs with the recommendation. BIA’s revised
   DSSEM handbook will require BIA to exercise its EAPs every 5 years.
   This revision is consistent with the FEMA guidelines. The BIA emergency
   management coordinator will implement the recommendation by February
   15, 2014.

3. Comply with requirements to prepare an exercise completion report after
   an EAP exercise or dam incident that includes a planned course of action
   to implement and track the recommended corrective actions.

   BIA Response: BIA concurs with the recommendation. The revised
   period for EAP exercising and reporting will improve DSSEM program
   resource management, efficiency, and effectiveness. BIA will include the
   requirement for exercise completion reports and identification of actions
   in the revised DSSEM handbook. A tracking system will be developed and
   maintained by the emergency management coordinator. The BIA
   emergency management coordinator will implement the recommendation
   by February 15, 2014.

4. Establish consistent documentation for annual EAP reviews and
   communication drills.

   BIA Response: BIA concurs with the recommendation. The requirement
   for exercise completion reports and identification of actions will be
   included in the revised DSSEM handbook. The BIA emergency
   management coordinator will develop and maintain a tracking system. The
   BIA emergency management coordinator will implement the
   recommendation by February 15, 2014.

5. Establish a timeline to finalize all the EAPs currently in draft.

   BIA Response: BIA concurs with the recommendation. The BIA
   emergency management coordinator will review all current draft EAPs
   and schedule tabletop exercises. All draft EAPs will be finalized within 60
   days of completed tabletop exercises. The BIA emergency management
   coordinator will implement the recommendation by February 15, 2014.

6. Maintain an inventory for all high- and significant-hazard dams’ EAPs and
   exercise completion reports.

   BIA Response: BIA concurs with the recommendation. The requirement
   for an inventory of all high- and significant-hazard dam EAPs and
   exercise completion reports will be included in the revised DSSEM
   handbook, and the initial inventory will be completed. The BIA



                                                                           11
   emergency management coordinator will implement the recommendation
   by February 15, 2014.

7. Ensure EAPs for all high- and significant-hazard dams have a listing of
   materials and equipment to the extent possible and document the process
   of verifying the location and existence of equipment and materials listed in
   the EAPs as part of the annual EAP reviews.

   BIA Response: BIA concurs with the recommendation. The requirement
   for listing, updating and verifying materials and equipment will also be
   included in the revised DSSEM handbook. The BIA emergency
   management coordinator will develop and maintain a verification tracking
   system. The BIA emergency management coordinator will implement the
   recommendation by February 15, 2014.

8. Determine if EWSs are needed and feasible at all high- and significant-
   hazard dams. If BIA determines that any of the remaining dams need an
   EWS and if it is feasible, BIA should develop and initiate an
   implementation plan.

   BIA Response: BIA concurs with the recommendation. The BIA dam
   safety officer will review all 136 high and significant hazard dams to
   determine the need and feasibility of EWSs. A report on the determination
   and implementation plan will be developed, as necessary, by the target
   date. The BIA dam safety and security officer will implement the
   recommendation by February 15, 2014.

9. Incorporate EWS information into the EAPs for those dams with an EWS.

   BIA Response: BIA concurs with the recommendation. The revised
   DSSEM handbook will require periodic review of EWS installation and
   operation and the inclusion of EWS information, including NMC
   protocols in the updated and revised EAPs for those dams that have
   EWSs. The BIA emergency management coordinator will develop and
   maintain a tracking system. The BIA dam safety and security officer will
   implement the recommendation by February 15, 2014.

10. Establish a policy to periodically review and update the established EWS
    decision criteria for each dam site and the communication directories at
    NMC, and document those reviews.

   BIA Response: BIA concurs with the recommendation. The revised
   DSSEM handbook will require periodic review of EWS installation and
   operation and the inclusion of EWS information, including NMC
   protocols in the updated and revised EAPs for those dams that have
   EWSs. The BIA emergency management coordinator will develop and




                                                                             12
      maintain a tracking system. The BIA dam safety and security officer will
      implement the recommendation by February 15, 2014.

   11. Work with USBR to make all existing EWSs fully functional.

      BIA Response: BIA concurs with the recommendation. The EWS
      functional decision criteria and equipment installation is performed by
      USBR under an interagency agreement. For more than a year, BIA has
      been requesting that the task be completed consistent with the BIA-USBR
      interagency agreement. If USBR is not responsive and fails to have the
      required EWSs fully functional (installation and decision criteria
      completed), then BIA staff in the safety of dams branch will complete the
      tasks required to have all of the EWSs fully functional. The BIA dam
      safety and security officer will implement the recommendation by
      February 15, 2014.

FWS
We recommend that FWS:

   12. Document the process of verifying the location and existence of
       equipment and materials listed in the EAPs as part of the annual EAP
       reviews.

      FWS Response: FWS concurs with the recommendation. FWS has
      updated the annual EAP review verification form to include a specific
      section to be completed, verifying the location of materials and equipment.
      The new annual EAP review verification form will be used during the
      upcoming 2013 EAP annual review starting in the fall of 2013. The FWS
      dam safety officer will implement the recommendation by October 31,
      2013.

   13. Create a written policy that requires the preparation and issuance of an
       AAR after each incident or exercise and the inclusion of a planned course
       of action to implement and track the recommended corrective actions in
       the AAR to formalize its existing practice.

      FWS Response: FWS concurs with the recommendation. FWS will
      modify Dam Safety Policy 361 FW 1-3 to incorporate the preparation of
      an AAR for each incident and exercise. The policy amendments will
      provide for specific details required in the AAR and procedures to track
      and verify recommended correction actions. The FWS dam safety officer
      will implement the recommendation by April 30, 2014.




                                                                              13
Appendix 1: Scope and Methodology
Scope
We conducted our evaluation in accordance with the Quality Standards for
Inspection and Evaluation, as put forth by the Council of the Inspectors General
on Integrity and Efficiency. We believe that the work performed provides a
reasonable basis for our conclusions and recommendations.

Our focus was to review the emergency preparedness of the Bureau of Indian
Affairs (BIA) and U.S. Fish and Wildlife Service’s (FWS) high-hazard dams. As
BIA is required to follow the Indian Dam Safety Act, which has different dam
hazard classifications than the other U.S. Department of the Interior (DOI)
bureaus, we decided to include BIA’s significant-hazard dams into the scope of
our review. We reviewed the emergency action plans (EAPs) for the top 20 high-
hazard and top 10 significant-hazard dams in BIA. Of the 30 dams selected in our
sample, 2 dams did not have EAPs because they were intentionally breached. We
reviewed the EAPs for the top 10 high-hazard dams in FWS.

Methodology
To accomplish the evaluation, we—

   •   reviewed laws, rules, and regulations and BIA and FWS policies for
       emergency preparedness as they relate to dam safety;
   •   reviewed the Bureau of Reclamation’s (USBR) 2008 “U.S. Department of
       the Interior Independent Oversight Review” reports for BIA and FWS;
   •   obtained high- and significant-hazard dam inventory listings from BIA
       and a high-hazard dam inventory listing from FWS;
   •   conducted site visits at BIA dams with early warning systems and BIA’s
       National Monitoring Center;
   •   interviewed BIA and FWS officials regarding emergency preparedness;
   •   reviewed EAPs, exercise completion reports, after-action reports, and
       other documents;
   •   obtained legal advice from our Office of General Counsel; and
   •   interviewed a USBR official to discuss BIA’s early warning systems.




                                                                                   14
Appendix 2: Prior Audit Coverage
U.S. Department of the Interior (DOI) Office of Inspector General (OIG) and the
U.S. Government Accountability Office (GAO) issued reports that were
applicable to our evaluation. These reports are listed below.

OIG
“Bureau of Land Management, National Park Service, and Office of Surface
Mining Reclamation and Enforcement’s Safety of Dams: Emergency
Preparedness,” WR-EV-MOA-0015-2011. December 2012. We reported that the
Office of Surface Mining Reclamation and Enforcement (OSM), Bureau of Land
Management (BLM), and National Park Service (NPS) either do not require high-
hazard dams within their purview to have emergency action plans (EAPs) or do
not ensure that EAPs have been adequately exercised, reviewed, or formalized.
The report also found an absence of a uniform approach to monitoring privately
owned high-hazard dams located on BLM’s and NPS’ lands, and high-hazard
non-Federal dams over which OSM has no direct regulatory jurisdiction.

“Bureau of Reclamation’s Safety of Dams: Emergency Preparedness,” WR-EV-
BOR-0007-2011. February 2012. We reported that the Bureau of Reclamation
(USBR) requires EAPs at its high- and significant-hazard dams. All of the EAPs
reviewed met the Federal Emergency Management Agency guidelines and USBR
directives. USBR’s internal management controls need to be strengthened,
however, to ensure the success of the EAPs.

“Safety of Dams Program, Bureau of Indian Affairs,” 95-I-422. February 1995.
We reported that the Bureau of Indian Affairs (BIA) had significantly improved
the management of its dam safety program since its September 1989 audit report.
BIA agreed to install early warning systems as an inexpensive alternative to more
costly rehabilitation work at or near those dams identified as posing a high or
significant hazard to public safety.

“Dam Safety Program, Bureau of Indian Affairs,” 89-108. September 1989. We
reported that BIA had not demonstrated an adequate commitment to its dam
safety program and had made little progress in correcting documented dam
deficiencies.

GAO
“Indian Programs: BIA and Indian Tribes Are Taking Action to Address Dam
Safety Concerns,” GAO/RCED-92-50. February 1992. GAO reported that key
factors contributing to BIA’s limited progress during the 1980s in addressing
known or potential safety deficiencies associated with dams on Indian
reservations had, to a large degree, been addressed. While BIA had not fully
corrected safety deficiencies, efforts were under way at many of BIA’s priority
dams to correct safety issues.


                                                                                  15
Appendix 3: Bureau of Indian Affairs’
Response
The Bureau of Indian Affairs’ response to our draft report follows on page 17.




                                                                                 16
                  United States Department of the Interior
                                BUREAU OF INDIAN AFFAIRS
                                      Washington, DC 20240

                                        AUG 2 9 2013
Memorandum

To:           Kimberly Elmore
              Assistant Inspector G             udits, Inspections and Evaluations

From:         Michael Blac
              Director, Bur

Subject:      Draft Audit Report- Evaluation of Sqfety of Dams - Emergency Preparedness for
              the Bureau of Indian Affairs and US. Fish and Wildlife Service Assignment No.
              WR-EV-MOA-0002-2013

Indian Affairs appreciates the opportunity to comment on the U.S. Department ofthe Interior
Office oflnspector General (OIG) Draft Audit Report- Evaluation ofSafety of Dams-
Emergency Preparedness for the Bureau of Indian Affairs and US. Fish and Wildlife Service and
provides the following response to the report's recommendations.

OIG Recommendation 1
   1. Bureau of Indian Affairs (BIA) should update BIA policies to align with Federal
      Emergency Management Agency (FEMA) dam hazard classifications.

Response:
Indian Affairs concurs with recommendation No. 1

The BIA Dam Safety Security and Emergency Management Branch is currently updating the
Dam Safety Security and Emergency Management (DSSEM) handbook and preparing draft
language for revision ofthe Indian Dams Safety Act of 1994 (IDSA) to be consistent with
Federal Emergency Management Agency (FEMA) guidelines and other Department of the
Interior (DOl) agencies.

Indian Affairs considers the actions taken regarding recommendation 1 to be sufficient to address
these recommendations.

Responsible Party:    BIA Dam Safety and Security Officer
Target Date:          February 15, 2014

OIG Recommendations No.2 through 5
2. Comply with requirements to exercise the Emergency Action Plans (EAPs) for high and
   significant hazard dam;
3. Comply with requirements to prepare an exercise completion report after an EAP exercise or
   dam incident that includes a planned course of action to implement and track recommended
   aCtions.:


                                                                                            17
4. Establish consistent documentation for annual EAP reviews and communication drills; and
5. Establish a timeline to finalize all the EAPs currently in draft.

Response:
Indian Affairs concurs with recommendations No.2 through 5.

BIA's revised DSSEM Handbook will require BIA to exercise its Emergency Action Plans
(EAPs) every 5 years. This revision is consistent with the FEMA "Federal Guidelines for Dam
Safety." In addition, the revised time period for EAP exercising and reporting will improve
DSSEM program resource management, efficiency, and effectiveness. The requirement for
exercise completion reports and identification of actions will be included in the revised DSSEM
handbook. A tracking system will be developed and maintained by the Emergency Management
Coordinator. The BIA Emergency Management Coordinator will review all current draft EAPs
and schedule tabletop exercises. All draft EAPs will be finalized within 60 days of completed
tabletop exercises.

Indian Affairs considers the actions taken regarding recommendations No. 2 through 5 to be
sufficient to address these recommendations.

Responsible Party:    BIA Emergency Management Coordinator
Target Date:          February 15, 2014

OIG Recommendations No.6 and 7.

6. Maintain an inventory for all high and significant hazard dams EAPs and exercise completion
   reports; and
7. Ensure EAPs for all high and significant hazard dams have a listing of materials and
   equipment to the extent possible, and document the process of verifying the location and
   existence of equipment and materials listed in the EAPs as part of the annual EAP reviews.

Response:
Indian Affairs concurs with recommendations No.6 and 7 to be sufficient to address these
recommendations.

The requirement for an inventory of all high and significant hazard dams EAPs and exercise
completion reports will be included in the revised DSSEM handbook and the initial inventory
will be completed. The requirement for listing, updating and verifying materials and equipment
will also be included in the revised DSSEM handbook. A tracking system for verification will be
developed and maintained by the Emergency Management Coordinator.

Responsible Party:    BIA Emergency Management Coordinator
Target Date:          February 15,2014




                                               2                                             18
OIG Recommendation No. 8 through 10
8. Determine if EWSs are needed and feasible at all high and significant hazard dams. If BIA
     determines that any of the remaining dams need an Early Warning System (EWS) and it is
    feasible, BIA should develop and initiate an implementation plan;
9. Incorporate EWS information into EAPs for those dams with an EW..C); and
I 0. Establish a policy to periodically review and update the established EWS decision criteria
    for each dam site and the communication directories at the National Monitoring Center
     (NMC) and document those reviews.

Response:
Indian Affairs concurs with recommendations No. 8 through 10.

The Bureau of Indian Affairs Dam Safety Officer will review all 136 BIA high
and significant hazard dams to determine the need and feasibility of Early Warning Systems. A
report on the determination and an implementation plan will be developed, as necessary,
by the target date. The revised DSSEM handbook will require periodic review ofEWS
installation and operation and the inclusion ofEWS information, including NMC protocols, in
the updated and revised the EAP's for those dams that have EWS's. A tracking system will be
developed and maintained by the Emergency Management Coordinator.

Responsible Party:     BIA Dam Safety and Security Officer
Target Date:           February 15,2014

Recommendation No. 11
I I. BIA should work with the US. Bureau of Reclamation to have all the EWSsfully functional.

Response:
Indian Affairs concurs with recommendation No. 11. The Dam Safety and Security Officer has
adequate authority to mandate inter-bureau coordination.

The EWS functional decision criteria and equipment installation is performed by Reclamation
under an Inter-agency Agreement. BIA has been requesting accomplishment consistent with the
BIA-Reclamation Interagency Agreement for over a year. BIA and Reclamation are
currently assuring the project manager for Reclamation completes the assigned tasks. If
Reclamation is not responsive and fails to have the required Early Warning Systems fully
functional (installation and decision criteria completed) the Bureau of Indian Affairs staff in the
Safety of Dams Branch will complete the tasks required to have all ofthe Early Warning
Systems fully functional.

Responsible Party:    BIA Dam Safety and Security Officer
Target Date:          February 15, 2014




                                                 3
                                                                                               19
Appendix 4: U.S. Fish and Wildlife
Service’s Response
The U.S. Fish and Wildlife Service’s response to our draft report follows on page
21.




                                                                               20
                United States Department of the Interior
                               FISH AND WILDLIFE SERVICE
                                      Washington, D.C. 20240


In Reply Refer To :                         AUG 0 6 Z013
FWS/ABHC/PDM/055243

Ms. Kimberly Elmore
Assistant Inspector General for Audits, Inspections, and Evaluations
U.S . Department of the Interior
Office of the Inspector General
1849 C Street, NW, MS 4428
Washington, DC 20240

Dear Ms. Elmore:

Thank you for providing the U.S . Fish and Wildlife Service the opportunity to respond and
comment on the draft Evaluation Report- Bureau of Indian Affairs and U.S . Fish and Wildlife
Service Safety of Dams: Emergency Preparedness, Report No. WR-EV-MOA-0002-2013

You will find our response to the findings and our plan to address those findings attached to this
document.




                                                     Prin ipal Deputy Assistant Secretary for
                                                     Fis Wildlife and Parks

Attachment




                                                                                                21
                                  Office of the Inspector General
 Draft Evaluation Report - Bureau of Indian Affairs and U.S. Fish and Wildlife Service Safety
                             of Dams: Emergency Preparedness
                            Report No. WR-EV-MOA-0002-2013

Specific Comments

Page one of the draft report, first sentence lists "many issues identified in previous reports "such
as not routinely exercising emergency action plans"(EAP), etc. The issues referenced as not
being performed apply ONLY to the Bureau of Indian Affairs, and DO NOT APPLY to the U.S .
Fish and Wildlife Service (Service) as the Service does routinely perform EAP exercises, does
document the exercises and does include a listing of materials and equipment in the EAPs. The
Service has an excellent EAP program. Including the Service in the last sentence inaccurately
and unfairly implies that we do not perform these important functions. Please delete the U.S.
Fish and Wildlife Service from the last sentence.

Conclusion

In April 2013, we issued BIA and FWS Notices of Potential Findings and Recommendations that
outlined the findings in this report. BIA and FWS generally concurred with our findings and
recommendations; they have begun addressing the issues identified in our review.

Both BIA and FWS are committed to the continual improvement of existing emergency
management procedures and we commend them for their dedication and ongoing efforts.

Recommendation 12: Document the process of verifying the location and existence of
equipment and materials listed in the EAPs as part of the annual EAP reviews;

Response:
Concur. The Service has modified the Annual EAP Review Verification form to include a
specific section to be completed, verifying the location of materials and equipment. The new
Annual EAP Review Verification form will be used during the upcoming 2013 EAP Annual
Review starting in the fall of 2013.

Target Date: October 31, 2013

Responsible Official: Brad Iarossi, Service Dam Safety Officer


Recommendation 13: Create a written policy that requires the preparation and issuance of an
AAR after each incident or exercise and the inclusion of a planned course of action to implement
and track the recommended corrective actions in the AAR to formalize its existing practice.

Response:
Concur. The Service will modify the Dam Safety Policy 361 FW 1-3 to incorporate the
preparation of an After Action Report for each incident and exercise. The policy amendments



                                                                                                  22
will provide for specific details required in the AAR and procedures to track and verify
recommended corrective actions.

Target Date: April 30, 2014

Responsible Official: Brad Iarossi, Service Dam Safety Officer




                                                                                           23
Appendix 5: Status of
Recommendations
  Recommendations           Status        Required Action

1 – 13              Resolved but not   No further response to
                    implemented.       the Office of Inspector
                                       General is required. We
                                       are referring the
                                       recommendations to
                                       the Assistant Secretary
                                       for Policy, Management
                                       and Budget for tracking.




                                                                  24
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doi.gov/oig/index.cfm

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
